Founders Federal Credit Union
737 Plantation Road
Lancaster, SC 29720
1-800-845-1614
foundersfcu.com

CREDIT CARD AGREEMENT

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT, ALL CARDHOLDERS, OR ANYONE ANY CARDHOLDER PERMITS TO USE THE CARD. THE "CARD"
MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS FOUNDERS
FEDERAL CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN. THIS AGREEMENT SUPERSEDES ALL PRIOR
AGREEMENTS AND DISCLOSURE STATEMENT RELATING TO YOUR ACCOUNT.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR FUNDS ON DEPOSIT TO THE AMOUNT YOU OWE.
Funds on deposit in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.
Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to the lesser of
your established credit limit or $5,000.00 from financial institutions that accept a
Visa Credit Card. Funds advanced from your credit card for balance transfers
and at ATMs are considered cash advances and will decrease your available
cash amount. See your monthly billing statement for your available cash
amount. You agree not to present your Card or obtain a cash advance for any
extension of credit in excess of your available credit limit; however, if you do
exceed your credit limit, you agree to make immediate payment sufficient to
bring the balance below the credit limit. Certain purchases and cash advances
require authorization prior to completion of the transaction. In some cases, you
may be asked to provide identification. If our system is not working, we may not
be able to authorize a transaction, even though you have sufficient credit
available. Also, for security reasons, we may block the use of your Card in
certain countries or geographic areas. We will have no liability to you or others if
any of these events occur.
Personal Identification Number (PIN). We may issue a Personal Identification
Number (PIN) for use with your Card. This PIN is confidential and should not be
disclosed to anyone. You may use your PIN and your Card to access your
account, and all sums advanced will be added to your account balance. In the
event a use of your PIN constitutes an Electronic Funds Transfer, the terms and
conditions of your Electronic Funds Transfer Agreement may affect your rights.
You agree not to write your PIN on your Card, you will not keep your Card and
PIN together, and you will not provide your PIN to anyone who is not an
authorized user. Except as otherwise provided in this agreement, advances
through ATM access will be treated as cash advances under this Agreement.
Advances at authorized ATM's are limited to a total of $500 during any 24-hour
period. The total of all cash advances on your account and any withdrawals
from your other accounts through an ATM in any 24-hour period may be
combined for the purpose of this limitation. We are not responsible if any ATM
does not have enough cash for your transaction or is not in proper working
order. Although we do not charge a fee for this service, others may. Owners of
ATMs that we do not own may charge fees in addition to any fees disclosed in
this Agreement. This is not a fee charged by your Credit Union; however, any
such fee will be added to your account. The party charging the fee is required to
provide appropriate disclosures to you with regard to any such fees.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or fees;
(c) collection costs and attorney's fees as permitted by applicable law, and any
costs incurred in the recovery of the Card; and (d) credit in excess of your credit
limit that we may extend to you.
Illegal Transactions. You agree that your Card and account will not be used
to make or facilitate any illegal transactions as determined by applicable law;
and that any such use will constitute an event of default under this
9011 LASER XFM FI1001785 10-2020

Agreement. We may decline any transaction that we believe to be illegal under
applicable law, including but not limited to any transaction involving or relating to
any gambling activity. You agree that we will have no liability or responsibility for
any such use by you or any authorized user(s); or for declining any such
transaction. You further agree to indemnify and hold us harmless from any
suits, liability, damages or adverse action of any kind that results directly or
indirectly from such illegal use. You promise to pay us any and all amounts
owing on your Card for any transactions made by you, even if the transaction is
determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction under
the account.
Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay for
all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If someone
else is authorized to use your account and you want to end that person's
privilege, you must notify us in writing, and if he or she has a Card, you must
return that Card with your written notice for it to be effective.
You shall have sole responsibility for notifying us in writing regarding
cancellation of charging privileges of authorized user(s). You shall return to us
the Card upon cancellation. You shall be responsible for any and all charges
made prior to the return of the Card to us.
Ownership of Card. Your Card remains our property and may be cancelled by
us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, balance
transfers, insurance premiums, debt protection fees or other fees or advances,
and subtract any payments, unpaid interest charges, and unpaid late charges.
This gives us the daily balance. Then, we add up all the daily balances for the
billing cycle and divide that by the number of days in the billing cycle. We then
multiply that by the periodic rate corresponding to the Annual Percentage Rate
on your account. If you have different rates for purchases, cash advances or
balance transfers, separate average daily balances for each will be calculated
and the appropriate periodic rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on purchases
by paying the full amount of the new balance for purchases each month by the
date on which the payment is due. Otherwise, the new balance of your account,
and subsequent advances from the date they are posted to the account, will be
subject to an Interest Charge. You cannot avoid Interest Charges on cash
advances and balance transfers; even if you pay the entire cash advance
balance or balance transfer balance by the payment due date, you will incur the
Interest Charges accrued from the date the cash advance or balance transfer is
posted to your account.
Fees. In addition to the Interest Charges set forth above, you agree to also pay
any and all fees that you incur as disclosed to you on your Truth-in- Lending
Statement or similar disclosures (as may be amended from time to time), or as
disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use of
the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. The
telephone number to call is (866) 820-6784 for Preferred No Frills Visa and
Platinum Secured Visa or (855) 687-1965 for Visa Signature. You agree to
follow up your call with notice in writing to us at: 737 Plantation Road,
Lancaster, SC 29720. You also agree to assist us in determining the facts,
circumstances and other pertinent information relating to any loss, theft or

page 1 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

possible unauthorized use of your Card and comply with such procedures as
we may require in connection with our investigation. You will be liable for any
unauthorized use only if we can prove that you were negligent in your use or
handling of your Card, or if we can prove that you used your Card fraudulently.
Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. If your payment is
received by us on a business day at the address on the billing statement and by
the time designated on the billing statement, it will be credited to your account
on the date of receipt. If payment is made at any location other than the
address designated on the periodic statement, credit for such payment may be
delayed until payment is received and processed. Payments will be applied in
any order we determine, subject to applicable law.
Skip Payment Option. At our option, we may offer you the opportunity to not
make (“skip”) a minimum payment during certain designated billing cycles (“skip
payment period”). If you choose this skip payment option and do not make your
minimum payments as provided in this Agreement, during such designated
billing cycles, you understand that we will continue to apply finance charges to
your Account. Beginning with the billing cycle following an allowed skip payment
period, the original terms of this Agreement will apply. We have no obligation to
accept your application for any skip payment period offered, and you authorize
us to investigate your creditworthiness including obtaining consumer credit
reports. We may charge you an application processing fee of up to $35 for each
skip payment period that we may offer to cover our costs of investigating your
qualifications for this extension including but not limited to the costs associated
with researching your creditworthiness.

Foreign Transactions; Currency Conversion. Purchases and cash advances
made in foreign currencies will be billed to you in U.S. dollars. The conversion
rate in dollars will be a rate selected by the card company from a range of rates
available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate the card company itself receives, or the
government-mandated rate in effect for the applicable central processing date in
each instance. All transactions processed outside of the United States (which
may include internet transactions) will be charged a foreign transaction fee in
the amount disclosed on your Truth-in-Lending Statement (as amended from
time to time).
Transaction Slips. Your monthly statement will identify what merchant,
electronic terminal or financial institution at which transactions were made.
Sales, cash advance, credit or other slips cannot be returned with the
statement.
Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the Card
as well as Interest Charges and fees incurred. We may change the terms of this
Agreement, including the method of calculating the periodic rate or lowering
your credit limit, at any time, by written notice, subject to applicable law. Use of
the Card constitutes agreement and acceptance of any change in terms, unless
applicable law requires otherwise. Our failure to exercise any of our rights or to
take any action shall not constitute a waiver of those rights, or an amendment
or change in any of the terms of this Agreement.

Default; Acceleration; Credit Suspension; Collection Costs. You will be in
default if: (1) you fail to make any payment on time; (2) if you fail to keep any
promises you have made under this Agreement or under other Agreements you
have with us; (3) if you die; (4) if you file a petition in bankruptcy or have a
bankruptcy petition filed against you, or if you become involved in any
insolvency, receivership or custodial proceeding; (5) if anyone attempts to take
any of your funds held by us via legal process or if you have a judgment or tax
lien filed against you; (6) if you make any false, inaccurate, or misleading
statements in any credit application or credit update; (7) if we, in good faith,
believe that your ability to repay what you owe is or soon will be impaired, or
that you are unwilling to make your payments; or (8) if you use or authorize the
use of any Card(s) to make or facilitate any illegal transaction.

Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or prepayments
will not delay your next scheduled payment - you will still need to make the
minimum scheduled payment by the next scheduled due date to keep your
account current. We may accept late payments, partial payments, checks or
money orders marked "payment in full" and such action shall not constitute final
settlement of your account or a waiver or forgiveness of any amounts owing
under this Agreement.

If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what
you owe has been paid, and any funds on deposit that were given as security
for your account may be applied towards what you owe. You agree to pay all
reasonable costs of collection, including court costs and attorney's fees, and
any costs incurred in the recovery of the Card, subject to applicable law. Even if
your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.

Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a credit
slip which will be posted to your account. If your credits and payments exceed
what you owe us, the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1 or more, it will be refunded upon
your written request or automatically after six months.

Enforcement. We do not lose our rights under this or any related agreement if
we delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full
force and effect.

Suspension of electronic services and access to funds on deposit
accounts. Subject to applicable law, we may suspend some or all electronic
services and access to your checking or other account(s) if you become
delinquent on any of your credit card or deposit obligations to us, you cause a
loss to us, or other reasons disclosed in the Membership Agreement. We shall
not be liable to you in any regard in connection with such suspension of
services.

Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home; and
only if you have made a good faith attempt, but have been unable to obtain
satisfaction from the plan merchant. You must resolve all other disputes directly
with the plan merchant. We do not warrant any merchandise or services
purchased by you with the Card.

Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You understand
that we are not obligated to offer such services and may withdraw or change
them at any time.

Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.

Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for the
amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance in
your account to exceed your credit limit.

Notification of Address Change. You will notify us promptly if you change
your address for any reason. In order to prevent identity theft, your identity may
need to be verified before we act upon the notification.

Credit Information. We may from time to time request personal information
from you or obtain credit reports from the credit reporting agencies for the
purpose of updating your credit status. Your failure to provide such
information when requested by us may result in suspension of credit
privileges under this Agreement, including your ability to obtain any future
advances by any means. You authorize us to investigate your credit standing
when opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureau and creditors who inquire
about your credit standing.

Governing Law. This Agreement shall be construed under federal law and
state law in the state in which we are primarily located, and the venue shall be
located in the county and state in which we are primarily located. Operating
regulations of Visa may also apply. This Agreement is the contract that applies
to all transactions even though the sales, cash advance, convenience check,
credit or other slips you sign or receive may contain different terms.

9011 LASER XFM FI1001785 10-2020

Copy Received. You acknowledge that you have received a copy of this
Agreement.

NOTICE TO UTAH BORROWERS: This written agreement is a final expression
of the agreement between you and the Credit Union. This written agreement
may not be contradicted by evidence of any oral agreement.

page 2 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military
Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property or a vehicle
that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this loan is a revolving
line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent (as defined in the MLA).
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums or debt protection
fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To receive
this notice verbally, please call 1-800-845-1614 during our normal business hours.
2. This loan will not be secured by a consensual lien on funds on deposit in any of your accounts unless you agree to establish an account in connection
with this loan (“Secured Account”). Only funds deposited into the Secured Account after the loan is made will secure this loan. Any cross-collateralization
provision contained in your loan or account documents will not apply to the Secured Account or your other funds on deposit accounts for any loan
subject to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or administrative freeze under federal or state law, which gives us the right to apply the
sums in the Secured Account or any other account(s) you have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to
waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from
you in order to exercise your legal rights; or (d) Prepayment penalties.
4. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to these
disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms and
conditions of the consumer credit contract shall remain in full force and effect.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 25 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

9011 LASER XFM FI1001785 10-2020

page 3 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

